HHS/OIG, Audit - "Review of Centers for Medicare & Medicaid Services
Medicaid Information Technology Audit Resolution Process," (A-04-06-05039)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Centers for Medicare & Medicaid Services Medicaid Information Technology
Audit Resolution Process," (A-04-06-05039)
June 30, 2008
Complete
Text of Report is available in PDF format (400 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of 197 Medicaid-related information technology (IT)
recommendations that the Office of Inspector General made to State Medicaid agencies
in 16 final reports between October 1, 2002, and September 30, 2005, the Centers
for Medicare & Medicaid Services (CMS) resolved 17 within the 6-month periods
following issuance, as required by regulations.  CMS resolved an additional 124
recommendations after the 6-month periods had expired.  The remaining 56
recommendations had not been resolved as of June 30, 2007.  CMS did not design
its procedures for resolving IT audit recommendations to ensure that the
recommendations were resolved within 6 months.
We recommended that CMS establish procedures to ensure that all IT audit
recommendations are resolved within 6 months of receiving an audit report.  CMS
concurred with our recommendation and described steps it has taken to improve
the audit resolution process.